Jos
\

@QCKLE

Le ga ] Brie fs E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

STONE CREEK, INC.,
Petitioner,
vs.
OMNIA ITALIAN DESIGN, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5949 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of November, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Boren Kens thos Qndian ht he

My Comm. Exp. September 5, 2023
Affiant 40179

 

Notary Public
